.!,





Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




       THE   RYAN WHITE              CARE ACT:

  TECHNICAL REPORT OF 1992 EXPENDITURES




               *.           .
             -*     +           JUNE GIBBS BROWN
                        /        Inspector General
                      OFFICE OF INSPE~OR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Offke of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (caUed inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


This report was prepared under the direction of William Moran, the Regional Inspector

General, and Natalie Coen, Deputy Regional Inspector General, for the Office of Evaluation

and Inspections, Region V. Participating in this project were the following people


Retion V                                                                 Headquarters


Barbara Butz, Project Leader                                             Alan S. Levine

Ellen R. Meara, I.ead Analyst

Heather Robertson

Joseph L.Penkrot


For a copy of this report, please call (312) 353-4124.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




    THE   RYAN WHITE     CARE ACT:


 TECHNICAL REPORT OF 1992 EXPENDITURES





                     JUNE GIBBS BROWN
                     Inspector   General

                           ApRIL 1994
                           05.93-00334
                       TABLE                   OF CONTENTS

                                                                                                               PAGE

                                                                                                                       1
IN’’I’ROI)umON            .................................................
                                                                                                                       4
TM~.....,””O””.O”.So--”                            ‘ “””””””””””””””””””””””””””                       ““””””””
                                                                                                                       4
TitleITables       .....................................................
                                                                                                                       4
     FY1992Award            Amomtsand           ~enditures          ...........................
                                                                                                                        6
     Summary of Grantee ~enditures                     by Setice      ..........................
                                                                                                                        11
     FY1992~enditures                 for the Top Seven Services              .....................
                                                                                                                      . 19

Title II Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                        19
     FY1992Award         hounts         and Expenditures . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                        21
     Summary of Grantee ~enditures                    by Setice . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                        28
      FY1992~enditures              for Title II Options . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                       30
      FY1992~enditures                 for the Top Six Services . . . . . . . . . . . . . . . . . . . . . . . .
                          INTRODUCTION


PURPOSE

The purpose of this technical report is to provide detailed Fiscal Year (FY) 1992
expenditures for Titles I and 11 of the Ryan White CARE Act. This report provides
supplemental information related to two reports in our Ryan White CARE Act series.

BACKGROUND

On August 18, 1990, Congress passed Public Law 101-381 entitled The Ryan White
Comprehensive AIDS Resources Emergency (CARE) Act of 1990 (the Act). The
purpose of the Act was to provide “emergency assistance to localities...
disproportionately affected by the Human Immunodeficiency Virus (HIV) epidemic
and to make financial assistance available to States and other public or private
nonprofit entities to provide for the development, organization, coordination and
operation of more effective and cost efficient systems for the delivery of essential
services to individuals and families with HIV disease.”

Congress funded the Act at $221 million for FY 1991, $276 million for FY 1992, $348
million for FY 1993, and $579.4 million for FY 1994. The Health Resources and
Services Administration (HRSA) within the Public Health Service administers the Act.

Four titles direct resources to various entities, allowing maximum flexibility to
grantees, particularly at the local level, in the use of funds. The first two titles, which
are the subject of this report, constitute 88 percent of Ryan White funding for FY
1994.

Title ~ funded at $325.5 million for FY 1994, comprises 56 percent of Ryan White
funding. This title provides emergency relief grants to eligible metropolitan areas
(EMAs) for HIV-related outpatient and ambulatory health and support services,
includlng case management and comprehensive treatment services. Public or
nonprofit private organizations are eligible for funding to provide services on a
contract basis with the EMA.

Half of the funds are distributed to EMAs through formula grants and half through
competitive supplemental grants. In FY 1992. the year addressed in this report, 18
EMAs received about $120 million (formula and supplemental funds combined).

Title Q funded at $183.9 million for FY 1994, comprises 32 percent of Ryan White
funding. This title provides formula grants to States and territories to improve the
quality, availability and organization of health care and support services for individuals
and families with HIV disease.   States receive aminimum    of$100,0OO.

In FY 1992, HRSA awarded 54 formula grants to States and territories totaling $99
million. States have the option of using Title H funds in one or more of the following
ways.

  �	     They may establish HIV care consortia within areas most affected by HIV
         disease, to provide a comprehensive continuum of care. Consortia must:
         consist of public and nonprofit private, health care and support service
         providers, and community based organizations; assist in the planning,
         development, and delive~ of comprehensive outpatient health and support
         services; conduct a needs assessment; and create a mechanism to period icaIly
         evaluate their major duties. States that report 1 percent or more of all
         AIDS cases reported to the Centers for Disease Control nationally must use
         50 percent of their funds to operate consortia.

  �	     They may provide home and community-based care services, including
         outreach services to individuals in rural areas.

  *	     They may provide treatments (medications) that prolong life or prevent
         serious deterioration of health.

  o�     They may provide assistance to assure the continuity of health insurance
         coverage.

SCOPE AND METHODOIDGY

The Ryan White CARE Act will come up for reauthorization for FY 1996. This
report is a technical assistance report related to a series of reports on the Ryan Wh i[e
CARE Act including:

  �       Funding Formulas (05-93-00330);

   �      FY 1992 Title I and Title II Expenditures   (05-93-00331);

   �      Special Projects of National Significance (05-93-00332); and,

   �      Consortia Activities (05-93-00333).

Both Title I and Title II Ryan White grantees are required in the law to report
aggregate expenditures for each service. Title I data in this report come from year-
end reports submitted by 17 of the 18 grantees funded in N 1992. Most of the data
was extracted from the reports by HRSA and given to us for analysis. We also
examined a few Title I reports ourselves and contacted two grantees about incomplete
or unclear information. For Title II, we reviewed year-end reports and subsequently
contacted all 54 grantees about missing or unclear information.


                                            2
This report provides detailed data on FY 1992 grantee expenditures by semice for use
by HRSA as well as in the discussion surrounding reauthorization.      Our study was not
an evaluation of the Ryan White program or any individual grantee. We did not ask
for explanations from grantees for why funds were spent as they were, or obtain any
description of the semices provided, including their quality or effectiveness.

We discovered limitations to the data which are described in our report on FY 1992
Title I and Title II expenditures. Despite the limitations, we consider this data to be
the best information available, given the time and resources available to us to obtain
it.




                                             3

                                           TABLES


TITLE I TABLES

The first nine tables describe Title I awards and expenditures. When referring to Title
I grantees in the tables, we use the city associated with that grantee for ease of
reading. For example, we refer to Atlanta, Georgia rather than Fulton County,
Georgia.

Table I: Iltk I FY 1992 Award AmounJs and Expndures

Table 1 shows HRSA Title I award amounts and grantee expenditures. The first
column shows the award amount for each grantee as reported by HRSA. The second
column shows FY 1992 expenditures as reported by each grantee. One grantee
reported spending more than its award.l




          .
          ‘ Grant awards are adjusted by HRS& however, throughout the program year based on financial status
reports submitted by grantees. Hence the final grant award amounts for FY 1992 reported by HRSA may differ to
some extent from the figures in this report.



                                                      4
   TABLE 1: RYAN WHITE TITLE I FY 1992
  AWARD AMOUNTS AND EXPENDITURES

                      HRSA           Total
City
                 Award       Expenditures

Atlanta GA
           3,148,612      2,899,666
Baltimore MD
         1,898,561        918,072
Boston MA
            3,569,149      2,940,382
Chicago IL
           4,431,632      4,327,152
Dallas TX
            3,203,220      3,196,220
Ft Lauderdale FL
     3,097,663      3,058,920
Houston TX
           6,377,597      5,562,500
Jersey City NJ
       2,368,466      2,306,381
Los Angeles CA
       9,925,225     10,759,820
Miami FL
             6,740,073      6,587,864
New York NY
         36,190,210     34,450,000
Oakland CA
           2,123,466      1,975,382
Philadelphia PA
      4,238,608      2,569,502
San Diego CA
         3,347,916      2,054,788
San Francisco CA
    21,662,418     21,562,175
San Juan PR
          3,579,982      3,579,983
Washington DC
        5,286,485      3,943,543

Total
              121,189,283   112,692,350




                         5

Table 2     Summuy of ZItle I Grantee Eqendhues                   by Se&e

Table 2 provides a breakdown of Title I expenditures by sefice for all 17 grantees
that reported expenditures. The services are shown in rank order by dollars spent,
from Primary Medical Care, which accounted for 20.6 percent of FY 1992 Title I
dollars, to Durable Medical Equipment (DME), on which no funds were spent.

The table shows total expenditures for each semice, and also shows these expenditures
as a percentage of total Title I expenditures. It also shows the amount spent on each
service by each grantee. This provides a detailed ovefiew of Title I expenditures.2




          L Just prior to issuing this report, we teamed that San Diego spent $751,850 on primary medical care and
$651,393 on case management, and that Baltimore spent S766,S22 on primary medical care. These figures are not
included in this report.



                                                         6
                                 TABLE 2; SUMMARY       OF TITLE I GRANTEE EXPENDITURES                                 BY SERVICE
                                                                         (page     1   of 4)


SERVICE                              Total Exp,           %     II               Atlanta GA         Baltimore   MD        Boston MA        Chicago     IL
...-. ____________
                                                                II
Title I Expenditures               112,692,350                       I           2,699,666               918,072          2,940,382        4,327,152
Primary Medical Care                23,229,170        20.6%          I           1,966,170                          0       164,132        1,194,707
Case Management                     14,743,352        13.1%          I             436,649                          0       368,056          813,500
Pharmaceuticals                     10,745,819          9.5%         I                 3s,oea                       0                  0                0
Housing Assistance                   8,026,538          7,1%         I                          o          64,744           591,665          312,193
Substance      Abuse                 8,005,212          7.1%         I                 15,000                       0                  0     370,2?0
Mental Health (MH)                   7,759,640          6.9%         I                          0        131,232              15,997         437,800

Administration                       7,738,368          6.9%         I             155,187                          0                  0     365,088
Food Bank/Home           Meals       4,788,296          4.2%         t                 93,154              39,600           427,758          129,457
Home Health                          4,253,888          3.8%         I             151,501               108,200                       0      80,090
Outreach/Info     Referral           3,456,889          3.1%         I                          0          73,949                      0     107,070
Non-MH      Counseling               2,827,464          2.5%         I                          0                   0       302,742                     0
Dental Care                          2,770,711          2.5%         I                          0          91,118           416,789                     0

P\anning/Evaluation                  2,248,907          2.0%         I                          0                   0                  0      15,000
Other                                2,159,636          1 .9%        I                          0          7S,756             97,117                    0

Client Advocacy                      1,474,046          1 .3%        I                          0                   o         79,760                    0

Day-Respite     Care                 1,308,944          1 .2%        I                          0          72,298           378,802           74,830

Buddy/Companion                      1,185,134          1.1%         I                          0                   0                  0                0
Transportation                       1,029,559          0.9%         I                          0          81,477             28,000          91,082

In Home Hospice                      1,013,318          0.9%         I                          0                   0                  0       88,622
Rehab Care                             989,704          0.9%         I                          0                   0                  0                0

Volunteer     Support                  808,264          0,7%         I                          0                   0                  0      46,717

Residential    Care                    632,752          0,6%         I                          0                   0                  0      64,695
Emergency       Finan.                 526,780          0.5%         I                          0         159,698                      0                0

Legal Services                         313,359          0.3%         I                          0                   0                  0      24,363
Adopt/Foster      Care                 256,205          0.2%         I                          0                   0                  0                0

Educ/Risk     Reduc                    174,330          0.2%         I                          0                   0         48,544                    0

Sign Lang/lnterp                         91,827         0.1%         I                          0                   0                  0                0

Inpatient Personnel                      91,625         0.1%         I                          0                   0                  0       91,625
Insurance                                44,805         0.0%         I                 44,805                       0                  0                0

DME                                               0     0.0%         I                          0                   0                  0                0

                                                                     I
TOTAL                              112,892,350        100.0%         I           2,6S9,666               918,072           2,940,382       4,327,152




                                                                                         7

                                     TABLE 2: SUMMARY         OF TITLE I GRANTEE                  EXPENDITURES          BY SERVICE
                                                                          (page      2 of 4)


SERVICE                          1      Dallas TX       Ft Lauder FL         Houston TX           Jersey City NJ      Los Angeles CA        Miami FL
--- ..--—_—
                                 I
Title I Expenditures             I      3,196,220         3,058,920           5,562,500               2,306,381           10,759,820       6,587,864

Primary Medical        Care      I        531,863         1,337,279               1,521,064             219,924            3,905,122       1,174,539

Case Management                  I        322,863           363,300           1,176,320                 953,630            1,060,578         727,619

Pharmaceuticals                  I         25,000           616,089                  48,954                       0                    0     914,224

Housing Assistance               I        288,756           409,076                 144,708                       0        1,314,687         119,884

Substance      Abusa             I        198,388                     0             102,702                       0          648,710         166,351

Mental Health (MH)               I        213,456            48,419                420,864                        0          656,376                   0

Administration                   I        172,757           188,291                           0         107,747              469,403         754,099

Food Bank/Home           Meals   I        160,590                     0             150,288             226,700               50,634         786,453

Home Health                      I        383,391                     0              96,870             410,500                        0     474,947

Outreach/Info     Referral       I        136,062                     0             247,002                       0          420,389                   0

Non-MH Counseling                I                  0                 0             135,880             246,490              599, f 79       504,276

Dental Care                      I        117,750                     0             272,133                       0          123,599         419,639

Planning/Evaluation              I         12,700                     0              99,649                       0          639,125         150,000

Other                            I                  0        76,466                           0         14+,190              470,701                   0

Client Advocacy                  I                  0                 0                       0                   o                    0               0

Day-Respite     Care             I        129,434                     0             105,000                       0                    0     141,686

Buddy) Companion                 I                  0                 0             150,981                       0                    0      69,306

Transportation                   I         80,000                     0             199,973                       0          156,324         105,071

In Home Hospice                  I                  0                 0             192,182                       0                    0               0

Rehab Care                       I                  0                 0              66,204                       0                    0               0

Volunteer     Support            I        191,220                     0             193,025                       0          168,020                   0

Residential    Care              I                  0                 0             163,057                       0                    0               0

Emergency       Finan.           I        172,117                     0              20,646                       0                    0      37,936

Legal Services                   I         59,853                     0              34,998                       0           54,993                   0

Adopt/Foster      Care           I                  0                 0                       0                   0                    0      21,632

Educ/Risk     Reduc              I                  0                 0                       0                   0                    0               0

Sign Lang/lnterp                 I                  0                 0                       0                   0                    0               0

Inpatient Personnel              I                  0                 0                       0                   0                    0               0

Insurance                        I                  0                 0                       0                   0                    0               0

DME                              I                  0                 0                       0                   0                    0               0

                                 I
TOTAL                            I      3,196,220         3,058,920           5,562,500               2,306,381           10,759,820       6,587,864




                                                                                       8

                                       TABLE 2: SUMMARY               OF TITLE I GRANTEE EXPENDITURES                   BY SERVICE
                                                                              (page 3 of 4)

SERVICE                            I    New York NY         Oakland    CA      Philadelphm    PA     San Diego CA        San Francisco   CA       San Juan PR
                                       ———                                                                              ———         —..—          —-—.    _______
                                   I
Title I Expenditures               I     34,450,000           1,975,382             2,569,502           2,054,768              21,562,175           3,579,983
Primary Medical        Care
       I      2,885,291             123,958               610,702             310,455                5,810,597               331,544
Case Management
                   I      3,942,000             358,889               963,557             478,247                1,370,626               557,563
Pharmacetiicals
                   I      7,363,35%                       0                      0                  0                        0       1,656,750
Housing Assistance
                I      2,171,932             151,943                          0          9,497                2,322,453               105,000
Substance     Abuse
               I      3,207,315             124,641                101,s36                      0            2,957,600                         0
Mental Health (MH)
                I      3,448,704              49,519               192,724             157,479                1,745,031                         0
Administration
                    I      3,334,027             317,039               178,552              86,370                  944,213               450,661
Food Bank/Home            Meals
   I      1,392,962              64,29s                 30,46e             60,903                  636,114                         0
Home Health
                       I      1,059,451             195,981                 50,649            182,863                  895,322                         0
Outreach/Info      Referral
       I         ,571,730                     0            196,240            245,991                  221,540                24,825
Non-MH      Counseling
            I         917,428             50,134                          0                  0                         0                    0
Dental Care
                       I         745,737             24,559                 60,029             23,298                  313,500                         0
Planning/Evaluation
               I         376,266                      0             96,700                      0              772,633                86,634
Other
                             I         ,062,938                     0                      0        233,761                     1,707                        0
Client Advocacy
                   I         608,232             65,487                          0         54,404                  645,163                         0
Day-l? espite Care
                I                    0                 0                      0         30,000                  338,663                         0
Bucidy/Companiorr
                 I         230,513             44,000                          0         17,171                  653,163                         0
Transportation
                    I                    0        24,559                 17,144             65,4U                    41,693                         0
In Home Hospice
                   I                    0       115,!320                         0                  o              602,538                         0
Rehab Care
                        I                    0                 o                      0                  0              864,221                         0
Volunteer     Support
             I                    0                 0                      0         24,047                   43$368                         0
Residential    Care
               I                    0                 0                      0                  0                         0          365,000
Emergency       Finan.
            I                    0       113,662                          0         22,721                             0                    0

Legal Services
                    I                    0                 0             28,580             32,177                    78,375                        0
AdoptfFoster      Care
            I         131,116                      0                      0                  0              103,455                         0

Educ/Risk     Reduc
               I                    0       125,786                          0                  0                         0                    0
Sign Lang/lnterp
                  I                    0                 0                      0                  0                         0                    0
Inpatient Personnel
               I                    0                 0                      0                  0                         0                    0
Insurance
                         I                    0                 0                      0                  0                         0                    0
DME
                               I                    0                 0                      0                  0                         0                    0

                                   1
TOTAL
                             I     34,450,000           1,975,382              2,569,502          2,054,788               21,562,175           3,579,963




                                                                                         9

        TABLE 2: SUMMARY                        OF TITLE I GRANTEE EXPENDITURES                 BY SERVICE
                                                                      (page   4 of 4)


                               SERVICE                            I     Washington    DC
        ... . . ..- -.- —---                      --—.     —      I

                               Ttile I Expenditures
              I           3,943,543

                               Primary Medical         Care
      I           1,139,823

                               Case Management
                   I             788,525

                               Pharmacti}cals
                    I              84,440

                               Housing Assistance
                I                       0

                               Substance     Abuse
               I             I I 2,2e3

                               Mental Health (MH)
                I             240,0f 9

                               Administration
                    I             194,934

                               Food Sank/Home            Meals
   I             311,8ss
                               Home Health
                       I             164,114

                               Outreach/Info     Referral
        I             210,101

                               Non-MH      Counseling
            I              71,353

                               Dental Care
                       I             142,560
                               Planning/Evaluation
               I                         0
                               Other
                             I                         0
                               Client Advocacy
                   I                         0
                               Day-Respite      Care
             I              38,023
                               Buddy/Companion
                   I                         0
                               Transportation
                    I             138,632
                               In Home Hospice
                   I               14,054
                               Rehab Care
                        I              59,279
                               Volunteer     Support
             I             141,867

                               Residential     Care
              I                         0
                               Emergency       Finan.
            I                         0

                               Legal Services
                    I                         0
                               Adopt/Foster      Care
            I                         0

                               Educ/Risk     Reduc
               I                         0
                               Sign Lang/lnterp
                  I               91,627
                               Inpatient    Personnel
            I                         0
                               Insurance
                         I                         0
                               DME
                               I                         0

                                                                  I
                               TOTAL
                             I           3,943,543




                                                                                                 10



—   .
Tables 3-9: llth IFY1992@eru&.um        forth   Top Smm Smku.

Under Title I, expenditures for the top seven services comprise over 70 percent of
total Title I expenditures for FY 1992. The following tables show expenditures for
these seven services, with one table devoted to each service. The top seven services
include: Primary Medical Care, Case Management, Pharmaceuticals, Housing
Assistance, Substance Abuse, Mental Health, and Administration. In addition to
showing expenditures for each service by grantee, each table also shows the
percentage of each grantee’s total Title I expenditures spent on that sexvice.




                                          11

                     TABLE 3: PRIMARY MEDICAL CARE (PMC)
                          RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                               I
                   I  PMC as %

                                      Total    I         Primary
   I of Grantee’s

             City                  Title I $        Medical Care    I     Title I $

            Atlanta GA          2,899,666             1,968,170     I          68%

         Baltimore MD             918,072                      0    I            o%

            Boston MA           2,940,382               164,132     I            6%

            Chicago IL          4,327,152             1,194,707     I          28%

              Dallas TX         3,196,220               531,863     I          1770

     Ft Lauderdale FL           3,058,920             1,337,279     I          4470

           Houston TX           5,562,500             1,521,064     I          27’%

        Jersey City NJ          2,306,381               219,924     I          10%

      Los Angeles CA           10,759,820             3,905,122     I          36%

              Miami FL          6,587,864             1,174,539                1870
         New York NY           34,450,000             2,885,291     1            8%
           Oakland CA           1,975,382               123,958     I            6V0
      Philadelphia PA           2,569,502               610,702     I          24%
        San Diego CA            2,054,788      I        310,455     I          15%
    San Francisco CA           21,562,175      I      5,810,597     I          27%
          San Juan PR           3,579,983      I        331,544     I            9%
      Washington DC             3,943,543      I      1,139,823     I          29%
                                               I
                   I
                 Total        112,692,350      I     23,229,170
              21 To




                                                            12



—
                 TABLE 4: CASE MANAGEMENT (CM)
               RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                               I                I    CM as %
                                      Total    I                I of Grantee’s
              City                 Title I $            CM$     I     Title I $
             Atlanta GA         2,899,666             436,849   I          1570
          Baltimore MD            918,072                   0   I          O?zo
             Boston MA          2,940,382             389,056   I         13%
             Chicago IL         4,327,152             813,500   I         1970
               Dallas TX        3,196,220             322,883   I         1o%
      Ft Lauderdale FL          3,058,920             383,300   I         13%
            Houston TX          5,562,500           1,176,320   I         21%
         Jersey City NJ         2,306,381             953,830   I         41%
       Los Angeles CA          10,759,820           1,060,578   I         1o%
               Miami FL         6,587,864             727,619   [         11%
          New York NY          34,450,000           3,942,000   I         ll%
            Oakland CA          1,975,382             358,899   [         18’%0
       Philadelphia PA          2,569,502             983,557   I         38%
         San Diego CA           2,054,788      I      478)247   I         23%
     San Francisco CA          21,562,175      I    1,370,626   I           6%
           San Juan PR          3,579,983      I      557,563   I         16’%0
       Washington DC            3,943,543      I      788,525   I         2070
                                               I                I
                  Total      112,692,350       I   14,743,352   I         13%




                                                         13



——
                       TABLE 5: PHARMACEUTICALS (RX)
                       RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                            I                    I    RX as %
                                   Total    I                    I of Grantee’s
         Citv                   Title I $             RX $             Title I $
        Atlanta GA           2,899,666              35,000                    1%
     Baltimore MD
             918,072                    0                   0%
        Boston MA
           2,940,382                    0                   o%
        Chicago IL
          4,327,152                    0                   0%
          Dallas TX
         3,196,220              25,000                    1%
 Ft Lauderdale FL
           3,058,920             616,089                  20%
       Houston TX
           5,562,500              48,954                    1%
    Jersey City NJ
          2,306,381                    0                   0%
  Los Angeles CA
           10,759,820                    0                   o%
          Miami FL
          6,587,864             914,224                  14%
     New York NY
           34,450,000           7,363,356                  2170
       Oakland CA
           1,975,382                    0                   o%
  Philadelphia PA
           2,569,502                    0                   O’zo
    San Diego CA
            2,054,788                      01               o%
San Francisco CA
           21,562,175                      01               O’zo
      San Juan PR
           3,579,983           1,658,756       I          46%

  Washington DC
             3,943,543              84,440       I           2%

                                                                 I

              Total        112,692,350          10,745,819       I          10’%





                                                       14
                  TABLE 6: HOUSING (HOUS)
             RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                          I                  I HOUS as %
                                 Total    I                  I of Grantee’s
         City                 Title I $         HOUS $             Title I $
        Atlanta GA         2,899,666                  0      I           o%

     Baltimore MD
           918,072             84,744      I           970

        Boston MA
         2,940,382            591,685      I          20%

        Chicago IL
        4,327,152            312,193      I           7%

          Dallas TX
       3,196,220            288,756      I           9%

 Ft Lauderdale FL
         3,058,920            409,076      I          13%

       Houston TX
         5,562,500            144,708      I           3’%0

    Jersey City NJ
        2,306,381                   0     I           0940

  Los Angeles CA
         10,759,820           1,314,667     I          1270

          Miami FL
        6,587,864             119,884     I           2%

     New York NY
         34,450,000           2,171,932     I           6%

       Oakland CA
         1,975,382             151,943     I           8%

  Philadelphia PA
         2,569,502                    0    I           o%

    San Diego CA
          2,054,788               9,497     I           o%

San Francisco CA
         21,562,175           2,322,453     I          11%

      San Juan PR
         3,579,983             105,000     I           3%

  Washington DC
           3,943,543                    0    I           o%

                                                             I

              Total      112,692,350           8,026,538     I           770





                                                       15

              TABLE 7: SUBSTANCE ABUSE (SA)
             RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                          I                  I    SA as’%

                                 Total    I                  I of Grantee’s

         City                 Title I $             SA $     I     Title I $

        Atlanta GA         2,899,666              15,000     I “          1%

     Baltimore MD
           918,072                   o     I           0?40

        Boston MA
         2,940,382                     0   I           o%

        Chicago IL
        4,327,152            370,276      I           9%

          Dallas TX
       3,196,220            198,388      I           6%

 Ft Lauderdale FL
         3,058,920                  0      I           o%

       Houston TX
         5,562,500            102,702      I           2%

    Jersey City NJ
        2,306,381                  0      I           o%

  Los Angeles CA
         10,759,820            648,710      I           6%

          Miami FL
        6,587,864            166,351      I           370

     New York NY
         34,450,000          3,207,315      I           9%

       Oakland CA
         1,975,382            124,641      I           6%

  Philadelphia PA
         2,569,502            101,936      I           4%

    San Diego CA
          2,054,788      I            0     I           0?!0

San Francisco CA
         21,562,175      I   2,957,600      I          149!0

      San Juan PR
         3,579,983      I            0     I           o%

  Washington DC
           3,943,543      I     112,293      I           3%

                                          I                  I

              Total      112,692,350      I   8,005,212      I           7%





                                                       16

              TABLE 8: MENTAL HEALTH (MH)
             RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                          I                  I    MH as %
                                 Total    I                  I of Grantee’s
         City
        Atlanta GA
                              Title I $
                           2,899,666
                                                   MH $
                                                       0
                                                             L     Title I $
                                                                          0%
                                                             I
     Baltimore MD            918,072            131,232      I          14%
        Boston MA          2,940,382             15,997      I           1Yo
        Chicago IL         4,327,152            437,800      I          10%
          Dallas TX        3,196,220            213,456      I           7%
 Ft Lauderdale FL          3,058,920             48,419      I           2%
       Houston TX          5,562,500            420,884      I           8%
    Jersey City NJ         2,306,381                   0     I           o%
  Los Angeles CA          10,759,820            658,376      I           670
          Miami FL         6,587,864                   0                 070
     New York NY          34,450,000          3,448,704                 1o%
       Oakland CA          1,975,382             49,519                  3%
  Philadelphia PA          2,569,502            192,724                  8%
    San Diego CA           2,054,788            157,479                  8%
San Francisco CA          21,562,175          1,745,031                  8%
      San Juan PR          3,579,983                   0                 o%
  Washington DC            3,943,543            240,019                  6%

             Total       112,692,350          7,759,640                   7%




                                                       17

                TABLE 9: ADMINISTRATIVE COSTS (ADMIN)
                RYAN WHITE TITLE I FY 1992 EXPENDITURES



                                             I                     I ADMIN as %
                                    Total    I                     1 of Grantee’s
             City                Title I $   I          ADMIN $          Title I $
            Atlanta GA        2,899,666      I           155,187                5%
         Baltimore MD           918,072      I                 0              09!0
            Boston MA         2,940,382      I                 0              070
            Chicago IL        4,327,152      I           365,088               8’%
              Dallas TX       3,196,220      I           172,757               570
     Ft Lauderdale FL         3,058,920      I           188,291               6%
           Houston TX         5,562,500      I                 0               o%
        Jersey City NJ        2,306,381      I           107,747               5%
      Los Angeles CA         10,759,820      I           489,403               570
              Miami FL        6,587,864      ]           754,099              11%
8
         New York NY         34,450,000      I         3,334,027              1o%
           Oakland CA         1,975,382      I           317,039              1670
      Philadelphia PA         2,569,502      I           178,552               7?/0
        San Diego CA          2,054,788      I            86,370               4%
    San Francisco CA         21,562,175      I           944,213               4°h
          San Juan PR         3,579,983      I           450,661              13%
      Washington DC           3,943,543      I           194,934               5%
                                             I
                 Total      112,692,350      \         7,738,368               7%




                                                 18

TITLE II TABLES

The last nine tables refer to Title II awards and expenditures for FY 1992.

Table 10: Ryan W%& llde 11 FY 1992 Awan.i Amounm and Eqend@m

Title 11 grantees   (States) each receive a Notice of Financial Grant Award from HRSA,
with the amount     of their grant specified. This amount is shown as “HRSA Award” in
Table 10. Since     the notices are updated throughout the year, we utilized the latest
information that    FIRSA had available in September, 1993 for FY 1992 awards.

There were many discrepancies in the N 1992 figures that States themselves provided
to us. Thus, we include in Table 10 a column for State identified award amounts,
labelled “State Identified Award.” The table also has a column listing total
expenditures by each State.

Fifteen States reported award amounts greater than those reported by HRSA. We
did not attempt to verify these amounts, nor can we explain the difference between
the States’ and HRSA’S data. As noted on page 4, however, HRSA does adjust award
amounts for grantees throughout the program yea~ this could account for the
difference in some cases.




                                            19

        TABLE 10: RYAN WHITE TITLE II FY 1992
        AWARD AMOUNTS             AND EXPENDITURES


                                      STATE lDEN-             TOTAL
STATE          HRSAAWARD            TIFIED AWARD       EXPENDITURES


AK                      100,000            124,470           123,955
AL                      790,679            790,079           788,423
AR                      497,308            497,308           497,308
AZ                      687,616            687,616           687,616
CA                   16,297,940         16,297,940        15,862,468
co                      838,453            838,453           857,391
CT                      999,652          1,068,400         1,068,399
DC                    1,385,438          1,538,544         1,334,463
DE                      173,168            173,168           173,168
FL                    9,927,807         11,011,364        10,754,102
GA                    3,201,172          3,201,172         3,155,728
GU                         4,323              4,616              4,618
HI                      366,974            442,934           442,934
1A                      164,436            164,436           164,436
ID                      100,000            100,000           100,000
IL                    2,829,336          3,374,175         3,275,301
IN                      726,781            688,781           688,781
KS                      274,616            274,616           270,693
KY                      528,039            299,009           299,00S
LA                    1,672,504          1,727,415         1,727,415
MA                    1,793,707          1,637,645         1,637,645
MD                    2,368,486          2,368,466         2,368,486
ME                      163,401             163,401          163,401
Ml                    l,213,0@            1,213,063        1,213,063
MN                      602,682             417,363          320,686
MO                    1,330,744           1,330,744        1,269,726
MS                      616,440             616,440          616,440
MT                       100,000            100,000           100,016
NC                    i ,664,757            967,473        1,162,266
ND                       100,000            100,000           100,000
NE                       117,168            117,188            90,10s
NH                       149,133            166,356           186,356
NJ                    4,711,438           4,688,987        4,688,987
NM                       254,732            254,714           254,714
NV                       443,463            443,463           443,463
NY                   17,693,568         16,828,76S        16,26S,813
OH                     1,423,256          1,366,761         1,376,800
OK                       490,547            488,20S           486,20S
OR                       658,551            679,447           679,447
PA                     2,536,6S7          2,702,630         2,702$30
PR                     5,681,717          5,681,717         4,975,196
Rf                       194,400            194,400           203,046
Sc                       795,067            795,067           782,319
SD                       100,000            103,386           103,386
TN                       737,498            737,498           737,498
7X               ‘     8,232,737          8,232,757         8,197,632
UT                       329,063            329,063           327,646
VA                     1,405,219          1,405,219         1,405,219
VI                        28,087              26,690           26,690
v-r                      100,000            100,000            92,405
WA                     1,322,995          1,418,902         1,418,902
WI                       539,014            526,602           526,602
w                        168,363            168,363           168,363
WY                       100,000            100,000           100,001


TOTAL                99,754,335         100,205,975        97,911,642




                                                           20

Table II: Sumnuuy of lltli? II Grantee Eqwn&ures by Senice

Table llprovides   abreakdow    of Title IIeqenditures  bysetice foral154 grantees.
The services are shown in rank order, from Pharmaceuticals, which accounted for 35.4
percent of FY 1992Title Idollars, to Inpatient Personnel onwhichno funds were
spent.

The table first shows total expenditures for each service and these expenditures as a
percentage of total Title II expenditures. It then shows the amount spent on each
service by each State. This provides a detailed overview of Title II expenditures,




                                          21

                                                           TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                                                         (page 1 of 6)


SERVICE                                   Total Exp.             %     II                 AK                AL               AR               AZ                     CA               co                    CT                    DC
----------------------------------   ----------------------- -------   II       -----------------------------------------------------------------------------------------------------------------------------------------
Pharmaceuticals                         34,632,562          35.4%      II           15,513         644,502           242,065          247,844             4,733,213            174,852              364,389                 366,054
Case Management                         17,355,868          1.7.7%     II           36,696           14,180            58,928         165,300             3,586,931           423,634               381,578                 409,196
Administration                          12,402,034          12.7%      II           19,371           43,255           82,487            36,572            2,514,361            129,239              168,325                 378,431
Primary Medical Care                     7,824,836            8,0%     II            7,445           14,478           35,403              2,000              716,380            31,947                59,432                       0
Home Health                              5,948,640            6.1%     Ii                   0        55,891           65,000          113,600                980,920            50,002               34,000                 135,135
Other                                    2,669,737            2.7%          I      20,710              1,335                   0                0            259,535                     0             3,000                       0
Insurance                                2,131,317            2.2%          I               0                 0                0                0            600,000                     0                    0                    0
Housing Assistance                       2,077,637           2.1%           I               0          6,713                   0                0            397,287                     0                    0              45,647
Transportation                           1,959,289           2.0%           I         1,727            2,645            9,230            3,000               313,208                     0            46,675                       0
Dental Care                              1.697,736            1.7%          I        3,522                150                  0        65,300               102,311              4,530                       0                    0
Mental Heatth (MH)                        1,329,530           1.4%     II           10,727             2,316                   0                0            328,692            35,497                        0                    0
Food BankjHome Meals                      1,321,785           1.3%     II                   0          1,872                   0                0            277,757                     0             5,000                      0
Emergency Finan                           1,219,946           1.2%     II                   0                0                 0                0            379,734                     0                    0                   0
Non-MH Counsehng                         1,189,980            1.2%     II                   0                0                 0                0              52,578                    0             6,000                      0
Outreach/Info Referral                      768,956          0.8%      II                   0                0                 0                0                      0                 0                    0                   0
Client Advocacy                             676,794          0.7%      I{                   0                0                 0        53,000               240,137                     0                    0                   0
Residential Care                            666,324          0.7%      II                   0                0                 0                0               6,826                   0                     0                   0
Buddy/Companion                             485,293          0.5%      II                   0                0                 0                0            229,252                    0                     0                   0
Day-Respite Care                            402,385          0.4%      II                   0                0                 0          1,000                72,937                   0                     0                   0
In Home Hospice                             373,223          0.4%      II                   0                0                 0                0              22,681             7,690                       0                   0
DME                                         270,239          0.3%      II                   0            368                   0                0              12,421                   0                     0                   0
Substance Abuse                             251,452          0.3%      II                   0                0                 0                0              12,711                   0                     0                   0
Educ/Risk Reduc                             160,248          0.2%      II            8,244               718            4,195                   0              22,598                    0                    0                   0
Rehab Care                                   44,780          0.0%      I[                   0                0                 0                0                      0                0                     0                   0
Adopt/Foster Care                            39,050          0.0%      /I                   0                0                0                 0                      0                0                     0                   0
Sign Lang/lnterp                              12,000         0.0%      {I                   0                0                 0                0                      0                0                     0                   0
Inpatient Personnel                                   0      0.0%      II                   0                0                 0                0                      0                0                     0                   0

                                                                       II
Title II   Expenditures                97,911,642           100.0 I I             123,955          788,423          497,308           687,616           15,862,469            857,391            1,068,399            1,334,463
                                                            TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                                                            (page 2 of 6)


SERVICE                               I               DE                     FL                 GA             GU                 HI               1A              ID                   IL               IN          KS
----------------------- , ---------       -------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                      I
Pharmaceuticals                       I        40,000            5,316,625            1,164,025            4,618        197,625            59,017           90,000          1,273,875          551,945          203,914
Case Management                       I                0         1,715,444              556,638                   0       19,912           43,555                0            451,714                     0           0
Administration                        I        10,168            1,055,985              178,468                   0       40,884           22,374           10,000            656,428          172,285           13,534
Primary Medical Care                  I                0           899,156              745,467                   0       16,166           16,048                0            360,345          173,549                0
Home Health                           I                0           260,898                         0              0         2,770                  0                0            2,043                    0      21,802
Other                                 I        43,500              205,876               10,794                   0       12,742                   0                0           84,442                   0            0
Insurance                             I        49,200                     0             337,056                   0       75,000                   0                0                   0                0       27,713
Housing Assistance                    I                0            190,485                        0              0       36,940                   0                0         231,598                    0            0
Transportation                        I                0            181,292               37,853                  0         3,192            5,984                  0           10,187                   0            0
Dental Care                           I                0           355,137                         0              0       16,166             5,039                  0            5,553                865             0
Mental Health (MH)                    I          8,000              151,479                        0              0       10,568                   0                0           10,345                137             0
Food Bank/Home Meals                                   0           135,423                         0             0          7,854                  0                0         176,770                    0            0
Emergency Finan                       I        16,000                     0                        0             0                0         8,744                   0                   0                0            0
Non-MH Counseling                     I                0           147,778                         0             0                0          1,706                  0                   0                0            0
Outreach/Info Referral                I                0                  0                        0             0                0              0                  0                   0                0            0
Client Advocacy                       I                0                      0                    0             0                0                0                0           12,000                   0            0
Residential Care                      I                0                      0                    0             0                0                0                0                   0                0            0
Buddy/Companion                       I                0                      0                    0             0                0                0                0                   0                0            0
Day-Respite Care                      I                0               5,890                       0             0                0          1,969                  0                   0                0            0
In Home Hospice                       I                0                      0                    0             0                0                0                0                   0                0            0
DME                                   I                0             34,065             125,427                  0                0                0                0                   0                0        3,730
Substance Abuse                       I          6,300               95,935                    0                 0                0                0                0                   0                0            0
Educ/Risk Reduc                       I                0                      0                    0             0                0                0                0                   0                0            0
Rehab Care                            I                0               2,633                       0             0              0                  0                0                   0                0            0
Adopt/Foster Care                     I                0                    0                      0             0         3,115                   0                0                   0                0            0
Sign Lang/lnterp                      I                0                      0                    0             0                0                0                0                   0                0            0
Inpatient Personnel                   I                0                      0                    0             0                0                0                0                   0                0            0
                                      I
Title II Expendllures                 I      173,168           10.754,102            3,155,728             4,618        442,934          164,436          100,000          3,275,301           898,781          270,693
                                                          TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                                                        (page 3 of 6)

SERVICE                              I              KY                  IA                  MA                  MD               ME                      Ml             MN                  MO                MS              MT
----------------------- ,---------        ------------- --------------------------------------------------      --------------------------------     ------------------------------------------------------------------------
                                     I
Pharmaceuticals                      I     216,804                        0           85,010             100,000                    0         129,500                     0         548,181         272,837           35,539
Case Management                      “1              0          304,517             657,250              458,770         163,401              896,929             47,000                     0                0         8,400
Administration                       I         2,432            172,812             339,135              405,449                    0              80,654         71,769            105,103           58,758          18,721
Primary Medical Care                 I               0          135,276                        0         686,680                   0               10,000         16,833             87,582         284,845           16,270
Home Health                          I         9,154            410,643             386,000              219,456                   0               90,000                 0        351,178                    0         1,800
Other                                I               0         343,991                t 1,950                      0               0                     0                0                  0                0         2,600
Insurance                            I       69,846               12,857                       0                   0               0                      0      79,763                      0                0         4,286
Housing Assistance                   I               0                 0              35,850                 67,501                0                      0            0             37,982                   0         2,800
Transportation                       I               0           73,005             167,300                       0                0                      0        4,429             75,787                   0           600
Dental Care                          I              0                     0                    0         142,000                   0                      0        7,974               3,436                  0         3,200
Mental Health (MH)                   I            732                     0           71,700                 84,136                0                     0                0          43,635                   0        3,100
Food Bank/Home Meals I                               0                    0           59,750                      0                0                     0                0          36,842                   0           900
Emergency Finan                      I               0          118,418               23,900             153,800                   0                      0      25,000                      0                0             0
Non-MH Counseling                    I               0                    0                   0                    0               0                     0       23,545                      0                0               0
Outreach/Info Referral               I               0                    0                   0              32,898                0                     0             0                     0                0               0
Client Advocacy                      I               0           84,182                       0                   0                0                     0        16,585                     0                0           100
Residential Care                     I               0           59,099                       0                   0                0                     0               0                   0                0             0
Buddy/Companion                      I               0                 0                      0                   0                0                     0               0                   0                0              0
Day-Respite Care                     I               0                    0                   0                   0                0                     0               0                   0                0              0
In Home Hospice                      I               0           12,615                       0              17,796                0                     0               0                   0                0              0
DME                                  I             41                     0                   0                   0                0                     0               0                   0                0              0
Substance Abuse                      I               0                    0                   0                   0                0                6,000                0                   0                0              0
Educ/Risk fhduc                      I               0                    0                   0                   0                0                     0               0                   0                0         1,700
Rehab Care                           I               0                    0                   0                   0                0                     0       28,000                      0                0              0
Adopt/Foster Care                    I               0                    0                   0                   0                0                     0             0                     0                0              0
Sign Lang/lnterp                     I               0                    0                   0                   0                0                     0            0                      0               0               0
Inpatient Personnel                  I               0                    0                   0                   0                0                     0               0                   0               0               0
                                     I
Title II Expenditures                I     299,009           1,727,415           1,837,845            2,368,486          163,401           1,213,083           320,898           1,289,726         616,440          100,016
                                                               TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                                                                (page 4 of 6)


SERVICE	                               I                NC               ND              NE             NH                   NJ              NM               NV                     NY                  OH              OK
---------------------------------          ..-------------------------------------------    ------------- -----------------------------------------------------------------------------------------        ----------------.-
                                       I
 Pharmaceuticals                       I        234,519            58,500        69,297          150,393          1,645,693            81,214         232,000             6,609,157              575,132         270,299
Case Management                     ‘. I        391,494                    0       6,990                0            577,500                    0       71,467            2,263,633                        0            0
Administration                        I           30,857           10,OOO          5,046            6,400            802,164           24,500           46,253            2,322,948              122,328           65,065
Primary Medical Care                  I           18,145          31,500           1,225                  0          509,992                    0             0             698,477                   43,751               0
Home Health                           I         231,508                    0              0       20,317             214,943           36,000           44,623            1,013,779                    1,600       62,500
Other                                 I           15,627                   0       2,075            1,624             37,937                    0             0             792,918                    3,673               0
Insurance                             I                   0                0              0               0                    0       50,000                   0                      0                   0               0
Housing Assistance                    I                   0                0          203                 0             5,798                   0               0           264,522              492,736                   0
Transportation                        I          51,513                    0       1,381                  0          177,431           17,000                   0           395,812                   28,777       20,290
Dental Care                           I            3,932                   0       1,250                  0          198,361                   0                0           406,807                   13,200               0
Mental Health (MH)                    I          28,190                    0           0            2,850            129,163                   0          1,250             151,340                    6,086               0
Food Bank/Home Meals I                                    0                0          230                 0           37,682                   0              0             109,301               67,913                  0
Emergency Finan                       I         114,719                    0             0                0                    0         3,000                  0                  0                  10,497        8,400
Non-MH Counseling                     I                   0                0             0                0           25,098                   0                0           576,256                        0              0
Outreach/Info Referral                I                   0                0          800                 0           89,043           19,000                   0           547,799                        0       20,328
Client Advocacy                       I                   0                0          711                 0           18,375           22,000                   0             64,028                     425       20,328
Residential Care                      i                   0               0              0                0                    0             0                  0                     0                    0              0
Buddy/Companion                       I          44,504                   0              0                0                    0               0                0             33,631                       0              0
Day-Respite Care                      I             806                   0           450                 0           72,112                   0        17,248                  9,701                      0              0
In Home Hospice                       I                  0                0              0                0           18,000                   0       30,357                   9,701                      0              0
DME                                   I            3,235                  0          450                  0             5,770            2,000               0                        0                2,013              0
Substance Abuse                       I                  0                0              0                0           93,678                   0                0                     0               2,300       21,000
Educ/Risk Reduc                       I                  0                0              0                0           26,183                   0                0                     0                    0              0
Rehab Care                            I               216                 0              0         4,773                4,064                  0            285                       0               3,809               0
Adopt/Foster Care                     I                 0                 0              0             0                      0                0                0                     0               2,560               0
Sign Lang/lnterp                      I                  0                0              0                0                   0                0                0                     0                    0              0
Inpatient Personnel                   I                  0                0              0                0                   0                0                0                     0                    0              0
                                      I
Title II Expenditures                 I     1,169,266           100.000          90,109         186,356          4,688,987           254,714          443,483          16,269,813            1,376,800          488,209
                                                    TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                                                             (page 5 of 6)

SERVICE                                     OR                   PA                   PR                RI           se               SD               TN                   TX               UT                 VA
..--------------------- ~--------- .----------------------------------------------------------------------     ------------------------------------------------     -.------------------------ --------------------------------
Pharmaceuticals                      344,680           1,136,075           2,292,366          119,700         434,731          88,848         729,007             1,349,684        203,607              426,768         22,89
Case Management                    ‘. 130,000            365,220             528,839                   0       34,786                   0                0        1,977,648            3,112            270,269
Administration                         57,444            357,508             415,378            19,348         55,663            5,000            8,491             589,714                 0          264,682            2,00
Primary Medical Care                   15,000            166,064             265,762                   0      189,639            4,053                   0          755,740            6,657           250,000
Home Health                            37,000              25,603            363,061                   0       40,200            1,513                   0         355,088           19,685              10,000           2,00
Other                                           0        228,374             386,708                 0               0               0                   0          198,648               772                  0
Insurance                                    0                  0                      0       64,000                  0                0               0           757,422                 0                     0
Housing Assistance                       5,000             19,494            112,310                   0               0                0               0            88,020                  0             6,000
Transportation                           6,323             42,233              37,759                  0               0                0               0           203,636           2,628               15,000
Dental Care                              8,000               9,098             32,544                  0               0                0               0           259,888          21,441              25,000
Mental Health (MH)                              0          41,787              74,119                  0        7,200            2,500                  0                     0      36,553              30,000
Food Bank/Home Meals                     6,000                     0                   0               0               0                0               0          386,048             1,586               5,000
Emergency Finan                        10,000            218,421               81,846                  0               0                0               0                 0            4,420             26,000
Non-MH Counseling                               0               0                      0               0        7,500                   0               0          310,888           12,381              15,000
Outreach/Info Referral                          0          27,646                  840                 0               0                0               0                     0              0           25,000
Client Advocacy                        15,000                  704               6,000                 0               0                0               0            51,400                  0             7,000
Residential Care                                0                0           299,983                   0               0                0               0          298,316                   0             2,000
Buddy/Companion                                 0          44,256             27,620                   0               0                0               0           79,664                   0             1,000
Day-Respite Care                       20,000                    0             41,215                  0               0                0               0           144,020                  0           15,000
In Home Hospice                                 0                  0                  0                0               0                0               0          253,916                   0                   0
DME                                             0              623               8,846                 0       12,600            1,472                  0           52,688             2,491               2,000
Substance Abuse                                 0            9,579                     0               0               0             0                  0                    0         2,450               1,500
Educ/Risk Reduc                                 0          10,143                      0               0               0                0               0            73,404          10,063                3,000
Rehab Care                                      0                  0                   0               0               0               0                0                    0               0             1,000
Adopt/Foster Care                      25,000                      0                   0               0               0               0                0                    0               0             4,000
Sign Lang/lnterp                                0                  0                   0               0               0               0                0            12,000                  0                 0
Inpatient Personnel                             0                  0                   0               0               0               0                0                    0               0                   0


Title II Expenditures                679,447          2,702,830           4,975,196          203,048         782,319         103,386          737,498             8,197,832        327,846          1,405,219          26,89
                 TABLE 11: SUMMARY OF TITLE II GRANTEE EXPENDITURES BY SERVICE
                                                                           (page 6 of 6)

                SERVICE                                 I                                                              w               WY
--------------- ----- .---,------------------ -------
                                                        I    -------"*--------------:-------------w:-------------------------------

                 Pharmaceuticals                        I      52,405            329,173                   0       61,228            37,249

                 Case Management                        I                        101,249          165,552          59,175             8,962
                 Administration                         I      i,oo:             203,472          136,580          14,192            10,000
                 Primary Medical Care                   10                      433,717           78,803            7,671         33,336
                 Home Health                            10                      272,568             6,000                  0          360
                Other                                   10                                0               0           905                 0
                 Insurance                              10                                0               0                0        4,175
                Housing Assistance                      I             o           14,279                  0       16,473                  0
                Transportation                          I             o                   0       20,000            2,307           1,086
                Dental Care                             I             o                   0             0           1,240           1,791
                Mentat Health (MH)                      I             o            3,262          52,743                   0        1,422
                Food BanWHOmO              M-S          I             o                   0               0         4,474           1,384
                Emargency         Fman                  I             o                   0       16,695              352                 0
                Non-MH Counsding                        I             o                   0       11,250                   0              0
                Outreach/lnlo Rated                     I             o                   0        5,600                   0              0
                Client Advocacy                         I             o          61,182            3,637                   0              0
                Residential Care                        I             o                  0                0           100                 0
                Buddy/Companion                         I             o                  0        25,367                   0              0
                Day-Respite Care                        I             o                  0                0                0            36
                In Home Hospice                         10                               0                0           266             200
                DME                                     10                               0                0                0            0
                Substance Abuse                         10                               0                0                0              0
                Educ/Risk Reduc                         10                               0                0                0              0
                Rehab Care                              I             o                  0                0                0              0
                Adopt/Foster Care                       10                               0         4,375                   0             0
                Sign Lang/lnterp                        10                               0                0                0             0
                Inpatient Personnel                     I            o                   0               0                 0             0
                                                        I
                TOTAL                                   I    92,405          1,418,902          526,602         168,383         100,001
Table 12: Expenditures for lltle II by Option

The four Ryan White CARE Act Title 11 options for States are consortia,
pharmaceuticals, home- and community- based care and insurance continuation.
Table 12 lists total expenditures for Title 11by State and then provides shows
expenditures for each option. Table 12 also displays expenditures for each option as a
percentage of total expenditures for each grantee,
                                                   TABLE 12: TITLE II OPTIONS*

               Ryan White FY 1992 Expenditures             by Option as a Percentage         of Total Expenditures


                  Total                                I       Pharma-                I Home&     Comm.              I
State     Expenditures           Consortia        %1           ceuticais        xi         Baaed Care          xi            Insurance        %
                                                                                      I                              I
  AK           123,955             121,737       96%                       o    o% I                     o     o% I                      o    o%
  AL           788,423              54,869        7%            554,682        70% I          141,111         16%    I                   0    o%
  AR           497,308             460,713       93%                       0    o% I                     o     o% I                      0    o%
  AZ           687,616             484,227       70%            164,544        27% I                     o     o% I                      0    o%
  CA        15,862,469          7,607,254        48%          4,594,012        29% I          917,295          6%    I        600,000         4%
  co           857,391             552,830       84%            174,652        20% 1            54,502         6%                        0    o%
  CT         1,068,399             597,171       56%            384,389        34% I                     o     o%                        0    o%
  Dc         1,334,463             664,970       51%            366,054        27% I          170,116         13%                        0    o%
  DE           173,168              53,800       31%             40,000        23% I            25,000        14%               49,200       26%
   FL       10,754,102          5,833,059        54%          4,455,121        41%[                      o     o%                        0    o%
  GA         3,155,728           1,462,554       47%          1,184,025        37% I            45,000         1%             337,056        11%
  GU              4,618                      o    o%               4,616       100                       o     o%                        0    o%
   HI          442,934             175,884       40% I          192,050        43%                       o     o%               75,000       1796
   1A          184,436              90,000       55% I           58,071        35%                       o     o%                        0    o%
   10          100,000                       o    o% I           90,000        90%                       o     o%                        0    o%
    IL       3,275,301           1,860,833       57% I        1,273,675        39%                       o     o%                        0    o%
   IN          898,7$1             309,194       34% I          551,945        61%                       o     o%                        0    o%
  KS           270,693                       o    o% I          203,914        75%              25,532         9%               27,713       1o%
  KY           299,009                       o    o% I          212,7’15       71%              14,016         5%               8S,846       23%
   LA        1,727,415           1,124,648       65% I                     o    o%            423,256         25%               12,657        1%
  MA         1,837,845           1,195,000       85% I           73,060         4%            386,000         21%                        0    o%
  MD         2,366,486           1,828,532       77% I          100,000         4%            237,252         10%                        0    o%
  ME           183,401             1833401       100 I                     o    o%                       o     o%                        0    o%
   Ml        1,213,083             912,929       75% I          129,500        11%              90,000,        7%                        0    o%
  MN           320,698             199,399       62% I                     o    o%                       o     o%               79,783       25%
  MO         1,289,726             836,442       49% I          548,161        43%                       o     o%                        0    o%
  MS           616,440                       o    o% I          272,637        44%            284,845         46’%                       0    o%
  MT           100,016              57,970       56% I           30,839        31%                       o     o%                4,266        4%
  NC         1,169,266             947,422       81% I          221,844        19%                       o     o%                        0    o%
  ND            100,000             90,000       90% I                     o    o%                       o     o%                        0    o%
  NE             90,109             15,592       17% I            69,297       77%                 900         1%                        0    o%
  NH            186,356                      o    o% I          150,393        61%              29,584        18%                        0    o%
   NJ        4,666,967           2,407,708       51% I        1,613,097        34%            205,602          4%                        0    o%
  NM           254,7i4              63,000       25% [            81,214       32%              36,000        15%               50,000       20%
  NV           443,463                       o    o% 1          232,000        52%            165,230         37%                        0    o%
  NY        16,269,813           8,179,780       50% I        6,609,157        41%                       o     o%                        0    o%
  OH         1,376,600             703,929       51%            571,476        42%                       o     o%                        0    o%
  OK           486,209             160,000       33%            241,299        49%              62.500        13%                        0    o%
  OR            679,447            260,323       41%            341,680        50%                       o                               0    o%
   PA        2,702,830           1,495,668       55%          1,136,075        42%              20,518                                   0    o%
   PR        4,975,196           2,840,659       57%          1,925,497        39%                       0                               0    o%
    RI          203,048                      o    o%            119,700        59%                       0                      84,000       32%
   Sc          782,319             297,252       36%            389,404        47%              60,000                                   0    o%
   SD           103,366                      o    o%              85,679       84%              32,507                                   0    o%
   TN           737,496                      o    o%            729,007        99%                        0                              0    o%
   TX        8,197,832           5,650,696       69%          1,200,000        15%                       0                     757,422        9%
   UT           327,646             99,067       30%            202,719        62%              26,060                                   0    o%
   VA         1,405,219            871,219       62%            400,000        28%                        0                              0    o%
    VI           26,690                      o    o%              22,890       65%                2,000                                  0    o%
   v-r           92,405             30,000       32%              52,405       57%                        0                              0    o%
  WA          1,418,902            712,451       50%            329,173        23% I          272,568                                    0    o%
   WI           526,602            460,876       91%                       o    o% 1                      0                              0    o%
  WV            166,383            109,016       65%              50,000       30% I                      0                              0    o%
  WY            100,001             48,577       49%              37,249       37% I                      0                      4.175        4%
                                                                                       I                                 I
TOTAL       97,911,642          51,970,653       53%         32,410,740        32% I        3,729,376          4%        [   2,131,317        2%

         ‘ Ths table does not show administraticm, m eveluaticm and planning expendmmes included m total State expenditures.




                                                                                            29

Tables 13-17: l%le II W 1992 Expenditures for the top Six Sem”ces

For Title II, expenditures for the top six services comprise almost 80 percent of total
Title 11 expenditures for FY 1992. The following tables show expenditures for these
six services, with one table devoted to each service.

The top six services include: Pharmaceuticals, Case Management, Primary Medical
Care, Administrative Costs, Home Health, and Planning and Evaluation. In addition
to showing expenditures for each service by State, each table also shows the
percentage of each State’s total Title II expenditures for that service.




                                           30

                                                    TABLE 13: PHARMACEUTICALS (RX)
                                                             RYAN WHITE TITLE II FY 1992 EXPENDITURES
             UNDER PHARMACEUTICAL,                      CONSORTIA,       AND HOME- AND COMMUNITY-BASED                            CARE (HCBC) OPTIONS


           Total                  I   Pharm.                 I                                        I                                        I     Total RX
           Expenditures           I   Option Exp.                Consortia     Expenditures           [       HCBC Expenditures                     Expenditures
                                  I                                                                   I                                        /                      RX as %
                        Total     I                                      Total                        I              Total                                           of State’s
State                Ttile II $   [              RX $             Consortia     $         RX$         I         HCBC $             RX $                  RX S         Title II $
                                                                                                      I
  AK                123,955                          0                121,737           15,513        I                      0            0            15,513               13%
   AL               788,423               554,662                      54,869            4,601        I          141,111         65,220               644,502               82%
  AR                497,308                          0                460,713         242,065         I                      0            0           242,065               49%
   AZ               667,618               164,544                     484,227           63,300        I                      0            0           247,644               36%
  CA          15,862,469                4,594,012                  7,607,254          138,227         I         917,295             975        I   4,733,213                30%
  co                657,391               174,852                     552,630                    01                 54,502                0           174,852               20%
  CT           1,068,399                  364,389                     597,171                    01                          0            0    /      364,389               34%
  DC           1,334,463                  366,054                     664,970                    01              170,116                  0    I      366,054               27%
  DE                173,168                 40,000                     53,800                    01                 25,000        4,089                44,089               25%
   FL         10,754,102                4,455,121                  5,633,059          861,504         I                      0            0        5,316,625                49%
  GA           3,155,728                1,164,025                   1,482,554                    01                 45,000                0         1,164,025               37%
  GU                   4,618                    4,618                           0             01                             0            0              4,618             1 00%
   HI               442,934               192,050                     175,664            5,575        I                      0            0           197,625               45%
   1A               164,436                 58,071                     90,000                 946     I                      0    4,950        I       63,967               39%
   ID               100,000                 90,000                              0                01                          0            0            90,000               90%
      IL       3,275,301          I     1,273,875            I      1,660,833                    01                          0            0    I    1,273,875               39%
   IN               898,781       I       551,945            I        309,194                    01                          0            0           551,945               61%
  KS                270,693       I       203,914            I                  0                01                 25,532                0           203,914               75%
   KY               299,009       I       212,715            I                  0                01                 14,016                 0          212,715               71%
   LA          1,727,415          I                     01          1,124,648                    01              423,258         22,969                22,969                 1%
  MA           1,837,645          I         73,060           I      1,195,000           11,950        I          386,000                   0   I       85,010                 5%
  MD           2,368,486          I       100,000            I      1,628,532                    01              237,252                  0           100,000                 4%
  ME                163,401       I                     01            163,401                    01                          0             0                     0            o%
   Ml          1,213,063          I       129,500            I        912,929                    QI                 90,000                 0          129,500                11%
  MN                320,898                             Q!            199,399                    o                           0             0   I                 0            o%
  MO           1,289,726                  548,161            I        636,442                    0                           0             0   I      548,181               43%
  MS                616,440               272,637            I                  0                0               264,645                   0   1      272,637               44%
  MT                 100,016                30,639           I         57,970            4,700                               0             0           35,539               36%
  NC           1,169,266                  221,644            I        947,422           12,675                               0             0          234,519               20%
  ND                 100,000                            01             90,000           58,500                               0             0           58,500                59%
  NE                  90,109                69,297           I         15,592                    0                     900                 0           69,297                77%
  NH                 186,356               150,393           I                  0                0                  29,564                 0          150,393                81%
   NJ          4,668,967                1,613,097            I      2,407,708           27,646                   205,602                   0        1,640,743               35%
  NM                 254,714                81,214           I         63,000                    0                  38,000                 0           81,214                32%
   NV               443,463               232,000            I                  0                0               165,230                   0          232,000                52%
   NY         16,269,613                6,609,157            I      8,179,780                    0                           0             0        6,609,157                41%
  OH           1,376,800                  571,478            I        703,929            3,654                               0             0          575,132                42%
  OK                488,209               241,299            I        160,000           29,000                      62,500                 0          270,299                55%
  OR                679,447               341,680            I        280,323            3,000                               0             0          344,680                51%
   PA          2,702,630                1,136,075                   1,495,668                    0                  20,518                 0        1,136,075                42%
   PR          4,975,196                1,925,497                   2,640,659         366,869                                0             0        2,292,366                46%
   RI               203,048                119,700                              0                0                           0             0          119,700                59%
   Sc                782,319              369,404                     297,252           65,327                      60,000                 0          434,731                56%
   SD                103,386                65,879                              0                0                  32,507                 0            65,879               64%
   TN                737,498               729,007                              0                0                           0             0          729,007                99%
   TX          8,197,632                 1,200,000”                 5,650,686          149,664                               0             0        1,349,664                16%
   UT                327,646               202,719                     99,067                 868                   28,060                 0          203,607                62%
   VA              1,405,219              400,000                     671,219           26,768                               0             0          426,768                30%
      VI              26,890                   22,890                           0            01                      2,000                 0            22,890               85%
   v-r                92,405                   52,405                  30,000                01                              0             0           52,405                57%
  WA               1,418,902               329,173                    712,451                01                  272,568                   0          329,173                23%
   WI                526,602                            0             480,878                01                              0             0                     0            o%
  Wv                 168,363                   50,000                 109,016           11,228            I                  0             0            61,228               36%
  w                  100,001                   37,249                  48,577                    01                          0             0           37,249                37%


TOTAL         97,911,642               32,410,740                  51,970,653        2,103,620            I    3,729,376         118.202           34,632,562                35%




                                                                                                              31

                                                                       TABLE 14: CASE MANAGEMENT                                       (CM)*

                                                                                   RYAN WHITE TITLE II FY 1992        EXPENDITURES
                                               UNDER         THE    CONSORTIA         AND HOME-       AND COMMUNITY-BASED        CARE (HCBC)       OPTIONS


                         Total                                                                         I                                       I
                      Expenditures                            Consortia       Expenditures             I   HCBC Expenditures                   I   Total CM Expenditures

                                                                                                       I                                                                   LM   a

                                     Total                             Total                                        Total                                  Total           of Sta
        State                     Title II $                  Consortia       $              CM $      I        HCBC $           CM $                      CM $             Title

                                                      I                                                I
           AK                    123,955              I             121,737             36,696         I                   0             0               36,696
           AL                    788,423              I              54,869              14,180        I         141,111                 0               14,180
           AR                    497,308              I             460,713             56,928         I                   0             0               58,928
           /+2                   687,616              I             464,227            165,300                             0             0              165,300
           CA                 15,662,469              I        7,607,254             3,324,935         /        917,295        261,995         i     3,586,931
          co                     857,391              I             552,830            423,834         I          54,502                 0             423,634
           CT                  1,068,399                            597,171            381,576                             0             0     I       381,578
          Dc                   1,334,483              I             664,970            409,196         I        170,116                  0     I       409,196
           FL                 10,754,102              I        5,833,059             1,715.444         I                   0             0            1,715,444
          GA                   3.155,726              I         1,482,554              513,836         I          45 SOoo       43,000         I       556,638
               HI                442,934              I             175,864              19,912                            o             0               19,912
               1A                 164,436             I              90,000             43,555         /                   0             0     I         43,555
               IL              3,275,301                        1,860,833              451,714         I                   0             0     I        451,714
           LA                  1,727,415              !         1,124,648              304,517         I        423,256                  0     I       304,517
          MA                   1,837,645                        1,195,000              857,250         I        386,000                  0     I        657,250
          MD                   2,366,486              /         1,826,532              458,770                  237,252                  0     I       458,770
          ME                      183,401             I             183,401            183,401         I                   0             0              163,401
           Ml                  1,213,083              I             912,929            696,929         I          90,000                 0     I        896,929
          MN                     320,898              I             199,399             47,000         I                   0             0               47,000
           MT                     100,016             i              57,970                  8,400                         0             0     I          8,400
          NC                   1,169,266              I             947,422            391,494         1                   0             0     I        391,494
           NE                      90,109             I              15,592                  6,990     I             900                 0     I          6,990
           NJ                  4,688,987              I         2,407,708              577,500         I        205,602                  0     I        577,500
           NV                    443,483                                       0                  0    I         185,230        71,467         I         71,467
           NY                 16,269,813              /         8,179,780            2,283,833         I                   0             0     I      2,263,633
          OR                     679,447                            260,323            130,000                             0             0              130,000
           PA                  2,702,630              I         1,495,668              385,220         /          20,518                 0     /        365,220
           PR                  4,975,196              I         2,640,859              528.839                             0             0              528,839
           Sc                    782,319              I             297,252              34,786        I          60,000                 0     I         34,786
           TX                  6,197,832                        5,850,696            1,977,648         I                   0             0     I      1,977,648
           UT                    327,646              /              99,067                       0    I          26,060         3,112         I          3,112
           VA                  1,405,219              I             871,219            270,269         I                   0             0              270,269
          WA                   1,416,902              I             712,451            101,249                   272,568                 0     I        101,249
           WI                     526,602             I             480,878            165,552         1                   0             0     I        165,552
          w                       168,383             I             109,016              59,175                            0             0     I         59,175
          WY                      100,001             I              48,577                  6,962     I                   0             0     I           8,962
                                                      I
    TOTAL**                   97,911,642              I       49,924,288            16,976,294         I       3,215,412       379,574         I     17,355,868


�    Eighteen         States     spent     no funds       on case    management.         These States are not included in the table.
�   * Totals        include    the 18 States     not shown in the table,




                                                                                                       32

                                                TABLE 15: PRIMARY MEDICAL CARE (PMC)*

                                                                 RYAN WHITE TITLE II FY 1992 EXPENDITURES
                                    UNDER     THE CONSORTIA         AND HOME-        AND COMMUNITY-BASED           CARE (HCBC)      OPTIONS


               Total                                                                 I                                       I
             Expenditures                   Consortia    Expenditures                I   HCBC Expenditures                   I    Total PMC Expenditures

                                                                                                                             I                      PMC    as %
                          Total                         Total                                       Total                    I          Total        of State’s
    State              Title II $             Consortia      $          PMC $                   HCBC $          PMC $        I        PMC $            Title II $

                                                                                                                             I
      AK               123,955                    121,737                7,445                             0             0   I         78445                   6%
       AL              788,423                      54,869              14,478                  141,111                  0   I        14,478                   2 Y.
      AR               497,308                    460,713               35,403                             0             0   I        35,403                   7%
       AZ              687,616                    484,227                2,000                             0             0   I         2,000                   0%

      CA         15,862,469                     7,607,254           716,380                     917,295                  0   I       716,380                   5~o
      co               857,391                    552,830               31,947                    54,502                 0   I        31,947                   4%

      CT           1,068,399                      597,171               59,432                             0             0   I        59,432                   6%
       FL        10,754,102                     5,833,059           899,156                                0             0           899,156                   870
      GA           3,155,728                    1,482,554           745,467                       45,000                 0   I       745,467                 24%

       HI              442,934                     175,884              16,166                             0             0            16,166                   4%

       1A              164,436                     90,000               16,048                             0             0   I        16,048                 1o%

        IL         3,275,301                    1,860,633           360,345                                0             0           360,345                 11%

       IN              898,781                    309,194           173,549                                0             0   !       173,549                 19%

       LA          1,727,415                    1,124,648           135,276                     423,258                  0   I       135,276                   8?L0

      MD           2,368,486                    1,828,532           686,680                     237,252                  0   I       686,680                 29%

       Ml          1,213,083                      912,929               10,000                    90,000                 0   I        10,000                      1%
      MN               320,898                    199,399               16,833                             0             0   I        16,833                   5%
      MO           1,289,726                      636,442               87,582       I                     0             0            67,582                   7%
      MS               616,440                          0                        0              284,845        284,845       I       284,845                 4 60/0
      MT               100,016                     57,970               16,270       I                     0             0   I        16,270                 16°[0
      NC           1,169,266                      947,422               18,145                             0             0            18,145                   2’54

      ND               100,000                     90,000               31,500       I                     0             0   I        31,500                 32?’.
      NE                90,109                     15,592                1,225       I               900                 0              1,225                     1ok
       NJ          4,688,987                    2,407,708           509,992          I          205,602                  0   I       509,992                 11‘%
      NY         16,269,813                     8,179,780           698,477          I                     0             0   I       696,477                   4%

      OH           1,376,800                      703,929               43,751                             0             0   I        43,751                   3 Y.

      OR               679,447                    280,323               15,000       I                     0             0   I        15,000                   2%
       PA          2,702,830           I        ~,495,668           166,064                       20,518                 0           166,064                   6%
       PR          4,975,196           I        2,840,859           265,762          I                     0             0   I       265,762                   5 ‘%0
      Sc               782,319         I          297,252           189,639          I            60!OO0                 0   I       189,639                 24%
      SD               103,386         I                0                        0                32,507         4,053       I         4,053                   4%

       TX          8,197,832           I        5,650,696           755,740          I                     0             0           755,740                   9%
       UT              327,846         I           99,067                6,657                    26,060                 0   I          6,657                     2 “/0
       VA          1,405,219                      871,219           250,000          I                     0             0           250,000                  18?6

      WA                               I       , 712,451                             I
                                                                                                                             !I
                   1,418,902                                        433,717                      272.568                 0           433,717                 31%
       WI              526,602                    480,878               78,803       I                     0             0            76,603                  15”6
      Wv               168,383         I          109,016                7,671       1                     0             0              7,671                     570

      WY               100,001         I           48,577               33,336       I                     0             0   I        33,336                 33%

                                       I                                             I
TOTAL**          97,911,642            I       51,970,653         7,535,938          I         3.729.376       288,898       I     7,824,836                      8%




* Sixteen States spent no Title II funds on primary medical care. These States are not included in this table.
** Totals include expenditures  for the 16 States not included in this table




                                                                                         33

                                         TABLE 16: ADMINISTRATIVE COSTS (ADMIN)
                                   RYAN WHITE TITLE II FY 1992 EXPENDITURES                        AT THE STATE LEVEL AND
                             UNDER THE CONSORTIA            AND HOME- AND COMMUNITY-BASED                               CARE (HCBC) OPTIONS


            Total            I   State Level         I                                         I                                         I
          Expenditures       I   ADMIN Exp.          \    Consotiia        Expenditures        I   HCBC Expenditures                     I   Total ADMIN Expenditures
                             I                       I                                         I                                         I                     ADMIN as %

                     Total   I    State-Level        I          Total                                       Total                        I         Total         of State’s

 State          Title II $   I      ADMIN $              Consortia     $       ADMIN S                   HCBC $           ADMIN $        I     ADMIN $             Title II $

                             I
   AK           123,955      1          2,218                121,737              8,577                            0                 0   I       10,795                    9%
   AL           788,423                 5,721                 54,869              1,931                  141,111                     0   I        7,652                    1%
   AR           497,308               34,295                460,713              45,892                            0                 0           80,187                  16%
   AZ           687,616                18,845               464,227              17,727                            0                 0           36,572                    5%
   CA        15,862,46S            1,057,124              7,607,254             325,709                  917,295            44,745            1,427,578                    9%
   co           857,391                37,604               552,830              49,532                   54,502             4,500       I       91,636                  11%
   CT         1,068,399                53,420               597,171              61,486                            0                 0   I      114,906                  11%
   DC         1,334,463                56,662               684,970              92,240                  170,116            11,661              160,763                  12%
   DE           173,168                 5,168                 53,800              5,000                   25,000                     0           10,168                    6%
    FL       10,754,102              247,965              5,833,059             590,063                            0                 0          638,028                    8%
   GA         3,155,728                42,093             1,482,554              49,375                   45,000             2,000               93,468                    3%
   GU                4,618                      0                      0                  0                        0                 0                    0                0%
    Hi          442,934                         0            175,884             40,884                            0                 0           40,884                    9%
    1A          164,436                 8,183                 90,000              6,009                            0                 0           14,192                    9%
    ID          100,000                 5,000                          0                  0                        0                 0             5,000                   5%
     IL       3,275,301              140,793              1,860,633             515,635                            0                 0          656,428                  20%
    IN          898,781                31,996               309,194             134,843                            0                 0          166,630                  19%
   KS           270,693                13,534                          0                  0               25,532                     0           13,534                    5%
   KY           299,008                 2,432                          0                  0    I          14,016                     0   I         2,432                   1%
    LA        1,727,415                83,327             1,124,648               6,160                  423,258                     0   I       89,487                    5%
   MA         1,837,645                91,892             1,195,000             131,450                  386,000                     0          223,342                  12%
   MD         2,368,486              101,351              1,828,532             202,747                  237,252                     0   I      304,098                  13%
   ME           163,401                         0            163,401                      0                        0                 0                     0               o%
    Ml        1,213,063                60,654               912,929                       0               90,000                     0           60,654                    5%
   MN           320,698                41,736        I       199,399             30,033                            0                 0           71,769                  22%
   MO         1,289,726                66,537        I       836,442                      0                        0                 0           66,537                    5%
   MS           616,440                29,379        I                 0                   0             264,845                     0           29,379                    5%
   MT           100,016                 3,461        I        57,970             11,800                            0                 0           15,261                  15%
   NC         1,169,266                      01             947,422              30,857                            0                 0           30,857                    3%
   ND           100,000                 5,000        I        90,000                       0                       0                 0             5,000                   5%
   NE               90,108              1,426        I        15,592                 535                      900                    0             1,961                   2%
   NH           186,356                 6,400        I                 0                  0               29,564                     0             6,400                   3%
    NJ        4,688,987              228,739         I    2,407,708             187,105                  205,802               370              416,214                    9%
   NM           254,714                10,000        I        63,000               2,000                  36,000                     0           12,000                    5%
   NV           443,463                30,636        I                 0                  0              165,230                     0           30,836                    7%
   NY        16,269,813              693,434         I    6,179,780             730,183                            0                 0        1,423,817                    9%
   OH         1,376,800                74,463        I       703,929             20,935                            0                 0   I       95,418                    7%
   OK           488,209                24,410        I       160,000             20,328                   62,500                     0   I       44,738                    9%
   OR           679,447                28,722        I       280,323                       0                       0                 0           28,722                    4%
    PA        2,702,830                50,569        I     1,495,688            187,137                   20,518             1,085              238,791                    9%
    PR        4,975,196              100,000         I    2,840,659             206,538                            0                 0          306,538                    6%
     RI         203,048                 9,674        I                 0                   0                       0                 0             9,674                   5%
   Sc           782,319                39,753        I       297,252                       0              60,000                     0           39,753                    5%
   SD           103,386                 5,000        I                 0                   0              32,507                     0             5,000                   5%
   TN           737,498                 8,491,       I                 0                   0                       0                 0             8,491                   1%
    TX        8,197,S32              364,714         I     5,650,696                       0                       0                 0          364,714                    4%
    UT          327,846                         01            99,067                       0              26,060                     0                     0               o%
    VA        1,405,219                67,000        I       871,219             87,122                            0                 0   I      154,122                   11%
     VI             26,890                      o                      0                   0                2,000                    0   I                 0               o%
    VT              92,405              5,000                 30,000                       0                       0                 0   I         5,000                   5%
   WA         1,418,902                52,355                712,451             48,762                  272,568                     0          101,117                    7%
    WI          526,602                22,862                480,878             39,609                            0                 0            62,471                  12%
   Wv           168,363                 4,457                109,016               4,825                            0                0             9,282                   6%
   WY           100,001                 5,000                 48,577                       0                        0                0             5,000                   5%
                                                                                               I
TOTAL        97,911,642             4,079,712            51,970,653           3,692,629              3,729,376              64,581       I    8,037,121                    8%




                                                                                                   34

                                                   TABLE 17: HOME HEALTH (HH)*

                                                               RYAN WHITE TITLE II FY 1992 EXPENDITURES
                                   UNDER   THE CONSORTIA          AND HOME-          AND COMMUNITY-BASED               CARE (HCBC)      OPTIONS


              Total                   I                                              I                                            I
            Expenditures              I    Consortia      Ex~enditures               I    HCBC Expenditures                       I   Total    HH Expenditures

                                      I                                                                                           I                              HH as %

                           Total      I            Total                                             Total                        I              Total           of State’s
    State             Title II $      I    Consortia      $              HH $                     HCBC       .$        HH $       I              HH $             Title II $

                                      I                                              I                                            I
      AL              788,423                    54.869                      0       I            141,111            55,891                    55,891                    7%
      AR              497,308         I        460,713              65,000           I                       0                0   I            65,000                   13%
      AZ              687,616         I        484,227             113,600           I                       0                0   I           113,600                   17%

      CA         15,862,469           I      7,607,254             400,601           I            917,295          580,318        I           980,920                     6%

      co              657,391         I        552,830                       0       I             54,502            50,002       I            50,002                     6Y.

      CT          1,068,399           I        597,171              34,000           I                       0                0   I            34,000                     3%

      DC          1,334,463           I        664,970                       0       I            170,116          135,135        I           135,135                   10?40
       FL        10,754,102                  5,833,059             260,898           I                       0                0   I           260,898                     2%
       HI             442,934         I        175,864                   2,770       I                       0                0   I              2,770                    1y.
       IL         3,275,301           I      1,860,633                   2,043       I                       0                0                  2,043                    070
      KS              270,693         I                   0                  0       I             25,532            21,802                    21,802                     6%
      KY              299,009         I                   0                  0       I             14,016             9,154       I              9,154                    3YQ
      LA          1,727,415                  1,124,648                       0       I            423,258          410,643        I           410,643                   247.
      MA          1,837,845           !      1,195,000                       0       I            386,000          386,000        I           386,000                   21%
      MD          2,368,486           I      1,828,532                       0       I            237,252          219,456        I           219,456                     9%
       Ml         1,213,063           I        912,929                       0       I             90,000            90,000       I            90,000                     7yo
     MO           1,289,726                    636,442             351,178           I                       0                0   I           351,178                   27%
      MT              100,016         /          57,970                  1,800       1                       0                0   I              1,600                    270
      NC          1,169,266           I        947,422             231,508           I                       0                0   I           231,508                   20%
      NH              186,356         I                    0                 0       I             29,564            20,317       I            20,317                   1170

      NJ          4,688,987           I      2,407,708              27,892           I            205,602           187,051       I           214s943                     5~o
      NM              254,714         I          63,000                          0   I             38,000            36,000       I            36,000                   1 4’%

      NV              443,483         I                    0                     0   I            165,230            44,623       I            44,623                    109’0
      NY         16,269,813           I      8,179,780           1,013,779           I                       0                0   I       1,013,779                       6%
      OH          1,376,800           I        703,929                   1,600       I                       0                0   I              1,600                    o%
      OK              488,209         I         160,000                          0   I             62,500            62,500                    62,500                   13yo
      OR              679,447         I        280,323              37,000           I                       0                0   I            37,000                     5 v.
      PA          2,702,830           I      1,495,668               11,070          I             20,518            14,533                    25,603                     1 Yo
      PR          4,975,196                  2,640,859             363,061                                   0                0   I           363,061                     7V0
      Sc              782,319         I        297,252                           0    I            60,000            40,200       1            40,200                     5%
      SD              103,386         I                    0                     0    1            32,507              1,513                     1,513                    1 Y.
       TX         8,197,632           I      5,650,696             355,088            I                      0                0   I           355,088                     4 Y.
      UT              327,846         I          99,067                          0    I             26,060           19,685                     19,685                    6%
      VA          1,405,219                     871,219              10,000                                  0                0   I             10,000                    1$40
       VI              26,890         !                    0                     0    I              2,000            2,000       I              2,000                    7%
      WA          1,418,902           I         712,451                          0                272,568           272,568       I           272,568                    19%.
       WI             526,602         I        480,878                   6,000        I                      0                0   I              6,000                    1%
      WY              100,001         1          48,577                    360        I                      0                0   I                360                    o%
                                      I                                               I                                           I
TOTAL**          97,911,642           I     49,305,959           3,289,248            I         3,373,631         2,659,392       I       5,948,640                       6%


* SiXteen StateS spent no funds On home health. These States are not shown in this table,
** Totals include expenditures for the sixteen States not shown in the table




                                                                                          35

                                          TABLE 18: PLANNING & EVALUATION (P&E)

                                         RYAN WHITE TITLE II FY 1992 EXPENDITURES                            AT THE STATE LEVEL AND
                             UNDER THE CONSORTIA                      AND HOME- AND COMMUNITY-BASED                              CARE (HCBC) OPTIONS


           Total             I        State Level                                                                                                    I
         Expenditures        I        P&E Exp.                                                              HCBC Expenditures                        I       Total P&E Expenditures
                             I                                                                                                                       I                         P&E as %
                     Total   ]         State-Level                        Total                                      Total                           I             Total       of State’s
State          Ttile II $    I              P&E $                  Consortia     $     P&E $                      HCBC S              P&E $          I            P&E $          Title Ii $
                             I                                                                                                                       I
  AK           123,955       I                       0                121,737           8,577                               o                  01                  8,577                7%
  AL           788,423       I              32,040                      54,86S          3,563                     141,111                      01                35,603                 5%
  AR           497,308       I               2,300                    460,713                   0                           0                  01                  2,300                o%
  AZ           687,616       I                       01               464,227                   0                           0                  01                         0             o%
  CA       15,862,469        I          1,086,763          I        7,607,254                   0                 917,295                      01             1,086,763                 7%
  co           857,391       I              37,604         I          552,630                   0                  54,502                      01                37,604                 4%
  CT         1,068,399        I             53,420         I          597,171                   0                           0                  01                53,420                 5%
  DC         1,334,463        I             56,662         I          664,970         137,887                     170,116             23,100         I          217,649                16%
  DE           173,168                               01                 53,800                  0                  25,000                      01                          0             o%
   FL       10,754,102                     217,957                  5,633,059                   0                           0                  01               217,957                  2%
  GA         3,155,728                      85,000                   1,482,554                  0                  45,000                      fJl               65,000                  3%
  GU                4,618                            0                           0              0                           0                  01                          0             o%
   HI          442,934                               0                 175,864                  0                           0                  01                          0             o%
   1A          164,436                       8,183                      90,000                  0                           0                  01                  8,183                 5%
   ID          100,000                       5,000                               0              0                           0                  01                  5,000                 5%
    IL       3,275,301                               0               1,860,633                  0                           0                  01                          0             o%
   IN          898,781                       5,646                     30s,194                  0                           0                  01                  5,646                 1%
   KS          270,693                               0                           o              0                  25,532                      01                          0             o%
   KY          299,002                                                           0              0                  14,016                      01                          0             o%
   LA        1,727,415                      63,326                   1,124,648                  0                 423,258                      01                63,326                  5%
  MA         1,637,845                      91,893                   1,195,000         23,900                     386,000                      01               115,793                  6%
  MD         2,368,486                     101,351                   1,828,532                  0                 237,252                      01               101,351                  4%
  ME           163,401                               0                 163,401                  0                            0                 QI                          0             o%
   Ml        1,213,063                      20,000                     912,929                  0                  90,000                      QI                 20,000                 2%
  MN           320,698                               0                 199,399                  0                            0                 01                          0             o%
  MO         1,289,726                      38,568                     636,442                  0                            0                 01                 38,566                 3%
  MS           616,440                      29,379                                0             0                 264,645                      01                 29,379                 5%
   MT          100,016                       3,461                      57,970                  0                            0                 01                  3,461                 3%
  NC         1,169,288                               0                 947,422                  0                            0                 01                          0             o%
   ND          100,000                        5,000                     90,000                  0                            0                 01                  5,000                 5%
   NE              90,109                     2,693                     15,592             193                         900                     01                  3,086                 3%
  NH           166,356                                0                           0             0                   29,564                     01                          0             o%
   NJ        4,668,967                     233,641                   2,407,708        I52,109                     205,602                      01               365,950                  8%
  NM           254,714           I          12,500                      63,000                   o                 38,000                      01                 12,500                 5%
   NV          443,463           I          15,417                                0              0                165,230                      01                 15,417                 3%
   NY       16,269,813           I         787,442                   8,179,780        111,888           I                    0                 01                699,330                 6%
  OH         1,376,800           I          26,910                     703,929                   0                           0                 01                 26,910                 2%
   OK          488,202           I                    0                160,000         20,328                       62,500                     01                 20,328                 4%
   OR          679,447           I          28,722                     280,323                   0                           0                 01                 28,722                 4%
   PA        2,702,630            I                   0              1,495,668        118,717                       20,518                     01                118,717                 4%
   PR        4,975,198            I        108,840                   2,640,659                   0                           0                 01                108,640                    2%
    RI          203,048           I           9,674                               0              0      I                    0                 01                  9,674                    5%
   Sc           782,319           I          15,910                    297,252                   0                  60,000                     01                 15,910                    2%
   SD           103,366           I                   01                          0              0      I           32,507                     01                          0                o%
   TN           737,496           I                   0.       I                  0              0      I                    0                 01                          0                o%
   TX        8,197,632            I        225,000             I     5,660,6S6                   0                           0                 01                225,000                    3%
   UT           327,646           I                   01                 99,067                  0      I           26,060                     01                          0                o%
   VA         1,405,219           I          67,000            I       871,219          43,560                               0                 01                110,560                    8%
    VI              26,890                    2,000            I                  0              0                   2,000                     01                   2,000                   7%
   v-r              92,405                    5,000            I         30,000         30,000                               0                 01                 35,000                38%
  WA          1,418,902                      52,355            I       712,451          50,000                     272,568                     01                102,355                    7%
   WI           526,602                      22,862            I       480,878          51,247          I                    0                 01                 74,109                14%
   w               168,363                    4,910            I       109,016                   0                           0                 01                   4,910                   3%
   WY              100,001                    5,000            I         48,577                     0                        0                 01                   5,000                   5%
                                                               I
TOTAL       97,911,642                   3,569,645             I    51,970,653        751,968                  3,729,376               23,100            I     4,364,913                    4%




                                                                                                            36

